TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2010



                                           July 18, 2011

                              Reference Number: 2011-30-071




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


TRENDS IN COMPLIANCE ACTIVITIES                        enforcement personnel by 19 percent since
THROUGH FISCAL YEAR 2010                               Fiscal Year 2006. This compares with a
                                                       4 percent increase in the total number of IRS
                                                       employees during this same period, from
Highlights                                             103,811 employees in Fiscal Year 2006 to
                                                       107,622 employees at the end of Fiscal
Final Report issued on July 18, 2011                   Year 2010.
                                                       The Fiscal Year 2010 Collection function
Highlights of Reference Number: 2011-30-071            activities showed mixed results compared to
to the Internal Revenue Service Deputy                 Fiscal Year 2009. The IRS continued to
Commissioner for Services and Enforcement.             increase the use of collection enforcement tools.
                                                       The number of delinquent accounts closed by
IMPACT ON TAXPAYERS
                                                       full payment increased, as did the amount
This report is a compilation of statistical            collected on delinquent accounts. However, the
information reported by the Internal Revenue           Collection function received more delinquent
Service (IRS). TIGTA did not verify or validate        accounts than it closed, gross accounts
the authenticity or reliability of the data and,       receivable increased, and the number of tax
therefore, did not identify any specific impact on     delinquency investigation tax periods closed with
the taxpayer. However, continued effort to             the receipt of a delinquent tax return decreased.
improve compliance is important to reducing the        In addition, while the number of taxpayers with
Tax Gap and maintaining the integrity of the           delinquent accounts and delinquent returns in
voluntary tax compliance system.                       the Queue decreased, it was offset by an
                                                       increase in the number of these cases that were
WHY TIGTA DID THE AUDIT                                shelved or surveyed.
TIGTA conducts this review each year, and it is        The Examination function’s recent increase in
included as part of our Fiscal Year 2011 Annual        revenue agents and tax compliance officers
Audit Plan and addresses the major                     resulted in the most tax returns examined over
management challenge of Tax Compliance                 the past five years, although the majority of
Initiatives. The overall objective was to provide      these examinations were conducted via
various statistical information regarding              correspondence. The number of tax returns
Collection and Examination function activities.        examined increased for individual, corporate,
                                                       and S Corporation tax returns in Fiscal
WHAT TIGTA FOUND
                                                       Year 2010, while the number of partnership
During Fiscal Year 2010, the IRS encountered           examinations decreased and examinations of
many challenges, including a variety of tax            other types of tax returns remained the same.
provisions that were created, extended, or             The no-change rates for examinations of
expanded. The IRS has the challenging task of          individual income tax returns by revenue agents
maintaining a quality workforce and enforcing          and tax compliance officers increased in
tax laws in an environment of changing tax             Fiscal Year 2010, but remained lower than the
legislation. For example, the American                 no-change rates reported in Fiscal Year 2006.
Recovery and Reinvestment Act of 2009
included 56 tax provisions. At least 42 of the         WHAT TIGTA RECOMMENDED
514 Affordable Care Act provisions add to or           Although TIGTA made no recommendations in
amend the Internal Revenue Code, and at least          this report, IRS officials were provided an
eight require the IRS to establish new                 opportunity to review the draft report. IRS
operations. Collectively, these provisions             management did not provide any comments to
represent the largest set of tax law changes in        the draft report.
20 years.
Recent staffing increases have resulted in an
increase of Collection and Examination function
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 18, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Compliance Activities Through Fiscal
                             Year 2010 (Audit # 201130012)

 This report presents the results of our review to provide various statistical information regarding
 Collection and Examination function activities. We conduct this review each year, and it is
 included as part of our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 (IRS) officials an opportunity to review the draft report. IRS management did not provide us
 with any report comments.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                                 Trends in Compliance Activities
                                                    Through Fiscal Year 2010




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Collection Function Compliance Activities Showed Mixed Results ............ Page 5
          Examination Function Compliance Activities Showed Mixed Results ........ Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Detailed Charts of Statistical Information ........................... Page 19
          Appendix V – Prior Treasury Inspector General for
          Tax Administration Compliance Trends Reports ......................................... Page 47
          Appendix VI – Glossary of Terms ................................................................ Page 48
              Trends in Compliance Activities
                 Through Fiscal Year 2010




               Abbreviations

ACS     Automated Collection System
CFf     Collection Field function
FY      Fiscal Year
IRS     Internal Revenue Service
RO      Revenue Officer
SFR     Substitute for Return
TDA     Taxpayer Delinquent Account
TDI     Taxpayer Delinquency Investigation
TIGTA   Treasury Inspector General for Tax Administration
                                    Trends in Compliance Activities
                                       Through Fiscal Year 2010




                                      Background

Each year, the Treasury Inspector General for Tax Administration (TIGTA) conducts this review
of nationwide compliance statistics for the Internal Revenue Service’s (IRS) Collection and
Examination function activities. This review is included in our Fiscal Year (FY) 2011 Annual
Audit Plan and addresses the major management challenge of Tax Compliance Initiatives. Our
data analyses were performed in TIGTA’s Philadelphia, Pennsylvania, office during the period
February through April 2011. Nationwide data from IRS management information systems were
used during our review. Due to time and resource constraints, we did not audit IRS systems to
validate the accuracy and reliability of their information. Also, we did not assess internal
controls because doing so was not applicable within the context of our objective. Our analyses
were limited to identifying changes and trends in IRS data.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. Detailed charts and tables referred to
in the body of this report are included in Appendix IV. A glossary of terms is included in
Appendix VI.
Most of the calculations throughout the report and Appendix IV are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report update prior TIGTA reports on
compliance trends. Appendix V presents a list of those reports.




                                                                                             Page 1
                                        Trends in Compliance Activities
                                           Through Fiscal Year 2010




                                    Results of Review

During FY 2010, the IRS encountered many challenges, including a variety of tax provisions that
were created, extended, or expanded. Specifically, the provisions were the:
    •   American Recovery and Reinvestment Act of 2009 (Recovery Act). 1
    •   Worker, Homeownership, and Business Assistance Act of 2009.2
    •   Hiring Incentives to Restore Employment Act of 2010 (HIRE Act). 3
    •   Patient Protection and Affordable Care Act of 2010 (Affordable Care Act).4
These tax provisions are examples of the impact tax law changes have on how the IRS conducts
its activities, how many resources are required, and how quickly the IRS can meet strategic
goals. The IRS has the challenging task of maintaining a quality workforce and enforcing tax
laws in an environment of changing tax legislation.
The Recovery Act included 56 tax provisions (20 related to individual taxpayers and 36 related
to business taxpayers). These provisions will continue to challenge the IRS over multiple filing
seasons. A significant provision of the Recovery Act is the Making Work Pay Tax Credit, which
applied to most taxpayers with earned income. The Making Work Pay Tax Credit was advanced
to taxpayers through their wages by a decrease in Federal income tax withholding. The Credit
was in effect for Tax Years5 2009 and 2010 and was implemented through new income tax
withholding tables issued by the IRS. The TIGTA reported that the reduced income tax
withholding associated with the Making Work Pay Tax Credit would make some taxpayers
vulnerable to under-withholding of taxes for Tax Years 2009 and 2010.6 Taxpayers who were
advanced more of the Making Work Pay Tax Credit than they were entitled to owed taxes when
filing their Tax Year 2009 returns and may again owe taxes when filing their Tax Year 2010 tax
returns.
The Worker, Homeownership, and Business Assistance Act of 2009 revised, extended, and
expanded the First-Time Homebuyer Credit (Homebuyer Credit) to a broader range of home
purchases and added new documentation requirements. For example, long-time residents of the


1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Pub. L. No. 111-92, 123 Stat. 2984 (2009).
3
  Pub. L. No. 111-147, 124 Stat. 71 (2010).
4
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
5
  See Appendix VI for a glossary of terms.
6
  Overall the Making Work Pay Credit Was Implemented As Intended by the Congress, but Resulted in Many
Taxpayers Owing Taxes With Their Returns (Reference Number 2011-41-002, dated November 1, 2010).
                                                                                                         Page 2
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2010



same main home may now claim the Homebuyer Credit if they purchase new principal
residences. New documentation requirements mean that taxpayers claiming the Homebuyer
Credit may not file their tax returns electronically and must file paper tax returns. Initially, the
IRS did not have math error authority7 to disallow the Homebuyer Credit during processing if
documentation was not provided. Congress has since passed legislation requiring documentation
for the Homebuyer Credit and provided the IRS with math error authority to disallow the Credit
if the documentation was not provided.
The HIRE Act enacted tax benefits to employers who expanded payrolls and hired previously
unemployed individuals. Eligible taxpayers will be exempt from their share of social security
taxes on wages to eligible employees. These taxpayers may also be eligible for a credit of up to
$1,000 for qualified employees. Additionally, Title V of the HIRE Act included the Foreign
Account Tax Compliance Act. A provision of this Act included the requirement that individual
taxpayers indicate on their income tax returns the maximum value of foreign financial assets
during the taxable year.8 This provision will allow the IRS to increase enforcement on taxpayers
hiding assets overseas.
At least 42 of the 514 Affordable Care Act provisions add to or amend the Internal Revenue
Code, and at least 8 require the IRS to establish new operations. Collectively, these provisions
represent the largest set of tax law changes in 20 years. The Affordable Care Act contains
$438 billion of revenue provisions in the form of new taxes and fees. It also contains credits
which provide incentives for medical research and for businesses to offer employees health care
insurance. Additionally, new reporting requirements have been established for certain business
transactions. The Affordable Care Act further imposes penalties administered through the tax
code for individuals and businesses that do not obtain health coverage for themselves or their
employees. Other provisions raise revenue to help pay for the overall cost of health insurance
reform.
The number of IRS employees increased by 3,811 employees (4 percent) from 103,811 in
FY 2006 to 107,622 in FY 2010. Roughly one-half of the increase came in FY 2010 alone,
during which the IRS started the year with 105,783 employees and ended it with 107,622.
During the same 5-year period, the combined number of Collection and Examination function
enforcement personnel9 increased by 19 percent, from approximately 14,500 at the beginning of
FY 2006 to more than 17,200 at the end of FY 2010. After experiencing staffing decreases of
4 percent during FY 2007 and less than 1 percent during FY 2008, the IRS increased
enforcement personnel by 10 and 5 percent during FY 2009 and FY 2010, respectively. Recent


7
  This is a program in which the IRS contacts taxpayers through the mail or by telephone when it identifies
mathematical errors or mismatches of taxpayer information that would result in a tax change.
8
  Applies to individual taxpayers with an aggregate balance of foreign financial assets of $50,000 or more.
9
  Collection function and Examination function staff located in field offices, excluding management and overhead
staff.
                                                                                                          Page 3
                                                             Trends in Compliance Activities
                                                                Through Fiscal Year 2010



staff increases have resulted in the largest numbers of IRS examination enforcement personnel
(revenue agents and tax compliance officers) since FY 1999.
From Calendar Years 2005 through 2009, the total number of tax returns filed grew by nearly
6 percent, from approximately 177 million to 187 million. As Figure 1 shows, total dollars the
IRS received and collected (gross collections) did not increase for the second straight year.
Since FY 2008, gross collections have decreased by 15 percent to $2.35 trillion in FY 2010.
This percentage decrease is nearly double the 8-percent decrease from FY 2001 through
FY 2003.

                                                 Figure 1: Gross Collections
                      $3.0




                      $2.5




                      $2.0
          Trillions




                      $1.5




                      $1.0




                      $0.5




                      $0.0
                             FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010


                 Source: TIGTA analysis of the IRS Data Book.

Enforcement revenue collected during FY 2010 increased by 18 percent from $48.9 billion to
$57.6 billion.10 This amount (not adjusted for inflation) is the first increase since FY 2007 and is
more than 18 percent higher than the FY 2006 amount.
The Government Accountability Office again included enforcement of tax laws as 1 of
the 30 high-risk areas in the Federal Government.11 The Government Accountability Office
stated that, “because the tax gap arises from so many different types of taxes and taxpayers,
multiple approaches will be needed to reduce it.” Despite an estimated voluntary compliance
rate of 84 percent12 and IRS enforcement efforts, a significant amount of income remains


10
   See Appendix IV, Figure 2.
11
   GAO’S 2011 HIGH RISK SERIES – An Update (GAO-11-394T, dated February 17, 2011).
12
   A Comprehensive Strategy for Reducing the Tax Gap (U.S. Department of the Treasury, Office of Tax Policy,
dated September 26, 2006).
                                                                                                                                           Page 4
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2010



unreported and unpaid. The IRS estimated the gross Tax Gap for Tax Year 2001 – the most
current figures to date – to be approximately $345 billion. The IRS also faces significant
challenges in obtaining complete and timely compliance data and in improving methodologies
necessary to measure noncompliance. Even with improved data collection, the IRS needs
broader strategies and more research to determine what actions are most effective in addressing
taxpayer noncompliance. The IRS’s strategy for reducing the Tax Gap is largely dependent on
funding for additional compliance resources as well as legislative changes.
An increasing number of taxpayers are turning to tax return preparers for assistance in meeting
their tax obligations. In Calendar Year 2009, the IRS processed approximately 83.1 million
individual Federal income tax returns prepared by paid preparers. However, these preparers
were not required to meet or comply with any national standards before selling tax preparation
services to the public. In December 2009, the IRS proposed reforms to improve oversight of the
return preparer community. The reforms include requirements for registration, competency
testing, continuing professional education, and ethical standards, in addition to enforcement of
these requirements by the IRS. The new preparer requirements will take several years to
implement and will be phased in through Calendar Year 2014, at which time all preparers will be
subjected to suitability and competency tests. In the interim, the IRS plans to develop and
implement a management information system to gather data on preparers and establish a
database to assist taxpayers in identifying qualified tax return preparers.

Collection Function Compliance Activities Showed Mixed Results
During FY 2010, the IRS collected the most revenue on Taxpayer Delinquent Accounts (TDA)
by the Automated Collection System (ACS) and Collection Field function (CFf) in 5 years, and
also increased its use of collection enforcement tools. However, there were also increases in the
number of cases that may never be worked because they were shelved or surveyed and in
accounts receivable. In addition, new TDA receipts continued to outpace closures.
Specifically, the number of TDAs closed (excluding shelved accounts) increased by more than
5 percent, and the number closed by full payment increased by almost 6 percent since FY 2009.13
Similarly, dollars collected on TDAs by ACS and CFf employees increased more than 15 percent
over FY 2009 amounts. The FY 2010 amount matched the 5-year high (FY 2007) of
approximately $6.3 billion. The average amount collected per CFf staff year on TDAs increased
by approximately 4 percent from FY 2009 (to $462,368), although FY 2010 represents a
19 percent decrease from a 5-year high in FY 2007 of $567,733.14




13
     See Appendix IV, Figures 18 and 19.
14
     See Appendix IV, Figure 7.
                                                                                           Page 5
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2010



Figure 2 shows that both the ACS and CFf made the majority of FY 2010 collections within the
first year of receipt of the case within the function, which has been the trend over the past
5 years. FY 2010 had more collections in the first year than any of the past 5 years.15
During FY 2010, the IRS received more new TDAs than it closed, with the gap between TDA
                   Figure 2: Percentage of Dollars Collected
          by Number of Weeks the TDA Was Assigned to the ACS and CFf


                          ACS                                                CFf
                                                 0-8 Weeks




                        12%                                                10%
                                                 9-25 Weeks
                                    25%
                                                                                       30%
                                                                     22%
                  19%


                                                 26-52 Weeks

                                                                                 38%
                              43%


                                                 Over 52 Weeks




      Source: IRS Collection Report 5000-2. Percentages do not equal 100 percent due to rounding.



receipts and TDA closures increasing to 2,211,046 accounts (an increase of nearly 50 percent
from FY 2009’s gap).16 This is the first time in 3 years that the gap has increased, surpassing a
high of 1,914,508 accounts during FY 2007.
The amount of gross accounts receivable increased more than 9 percent (to $359 billion) in
FY 2010, after increasing by 5 percent and 8 percent during FY 2008 and FY 2009,
respectively.17 The FY 2010 amount represents the 5-year high, and data indicate that the
amount has increased by no less than approximately 5 percent each year since FY 2006. It
should be noted that this year’s increase occurred with no material change in gross collections.




15
   See Appendix IV, Figures 9 and 10.
16
   See Appendix IV, Figure 16.
17
   See Appendix IV, Figure 2.
                                                                                                    Page 6
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2010



We obtained the amount of gross accounts receivable by source of assessment, which is shown in
Figure 3 as percentages of the total amount at the end of FY 2010. IRS records indicate that over
the last 5 years these percentages have not materially changed, except for an increase in the
Substitute for Return
(SFR)/6020(b) return
                                        Figure 3: FY 2010 Percentage of Accounts
category as additional
                                            Receivable by Source of Assessment
emphasis has been placed on
the program.18                                  Other 14.37%
                                                                                              Balance Due
The number of Taxpayer                             Math Error                                   25.26%
                                                    0.83%
Delinquency Investigation
(TDI) tax periods closed                      TFRP 4.34%
because delinquent tax
returns were received by the
IRS decreased by almost
13 percent from FY 2009 and
was only 2 percent more than
those tax periods closed in                                                                        Examination
                                                                                                     15.31%
FY 2006. This was largely
                                                SFR/6020(b)
driven by a nearly 38 percent                     30.62%
decrease in Queue closures                                                             TDI 9.28%
and a 21 percent decrease in
closures by Compliance                       Source: TIGTA analysis of data received from the Office of the
Services Collection                          Chief Financial Officer. TFRP = Trust Fund Recovery Penalty.
Operations.19
The number of taxpayers with
TDAs in the Queue also decreased during FY 2010 to 949,201 accounts, which is approximately
14 percent less than FY 2009 numbers. However, the amount owed in the Queue increased less
than 1 percent, to $46.2 billion, which is the smallest increase over the past 5 years. The number
of taxpayers with TDIs in the Queue decreased to 710,759, which is 20 percent lower than
FY 2009 and 29 percent less than the 5-year high, in FY 2007, of 998,287.20 Although many of
the cases in the Queue may be assigned to be worked, a significant number might never receive
additional contact to resolve the delinquency.21



18
   See Appendix IV, Figure 3.
19
   See Appendix IV, Figure 15.
20
   See Appendix IV, Figures 11 and 17.
21
   Before accounts get assigned to the Queue, the IRS has already sent notices to the taxpayer about the delinquency.
After the notice process, some cases go directly to the Queue, while others are worked in the ACS and may have
received enforcement action such as a lien or levy.
                                                                                                                 Page 7
                                        Trends in Compliance Activities
                                           Through Fiscal Year 2010



Although the number of taxpayers with TDIs and TDAs in the Queue decreased, large increases
in the shelved and surveyed cases during FY 2010 indicate that the decreases may not be due to
cases being worked and closed. During FY 2010, the number of TDI tax periods shelved or
surveyed increased by 98 percent, and the number of TDAs shelved or surveyed increased by
59 percent. Since FY 2006, the IRS has removed more than 4.8 million TDAs,22 with balance
due amounts totaling $26 billion.
The IRS increased the overall use of enforcement tools (liens, levies, and seizures) over the past
year. The use of liens has increased by 74 percent since FY 2006. During FY 2010, the number
of liens issued by the CFf and ACS increased by 14 and 13 percent, respectively. This represents
the largest increase since FY 2007 for the CFf, but alternatively the smallest increase for the
ACS since the same year.23
The total number of levies increased by 4 percent during FY 2010, which included a 73 percent
increase in levies issued by the CFf (to 667,322). However, this increase was offset by a
5 percent decrease in levies issued by the ACS (to 2,939,496). Seizures increased 4 percent in
FY 2010 (to 605), but remain 11 percent lower than the 5-year high (FY 2007) of 676 24 and are
94 percent less than the 10,090 seizures in FY 1997.
The number of CFf revenue officers (RO) working delinquent cases increased by almost
4 percent in FY 2009 and increased by more than 8 percent (to 4,068) in FY 2010.25 However,
the TIGTA recently reported that RO hiring in the Small Business/Self-Employed Division
during FY 2009 and FY 2010 continues to face the challenge of keeping pace with attrition and
workload.26 Planned hiring in FY 2011 and FY 2012 will barely cover the IRS’s estimated
attrition losses. With expected attrition losses of 584 and 600 ROs in FY 2011 and FY 2012,
respectively, a net gain of 127 ROs is forecasted for the end of FY 2012.27
Also, the Collection function is unable to work all of the existing accounts in the Queue with
current staffing, and the number of TDA receipts is outpacing closures. If changes do not occur,
a significant number of cases will continue to not receive additional contact to resolve the
delinquency. This reinforces the need for additional resources to work the cases.




22
   See Appendix IV, Figure 12.
23
   See Appendix IV, Figure 20.
24
   See Appendix IV, Figures 21 and 22.
25
   See Appendix IV, Figure 6.
26
   Challenges Remain to Balance Revenue Officer Staffing With Attrition and Workload Demands (Reference
Number 2011-30-039, dated May 6, 2011).
27
   This includes ROs who were not assigned delinquent cases.
                                                                                                      Page 8
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2010



Examination Function Compliance Activities Showed Mixed Results
Growing numbers of new Examination employees continue to increase examination coverage
and enforce tax laws, an important part of maintaining our voluntary tax compliance system.
IRS Oversight Board studies of taxpayer attitudes showed that fear of examination is a major
factor influencing taxpayers to report taxes honestly. In 2009, 63 percent of taxpayers surveyed
cited fear of examination as a factor that influenced their voluntary compliance. This increased
to 64 percent in 2010, which is the largest percentage in the past 5 years. A smaller percentage
(12 percent) of taxpayers believed that it was acceptable to cheat on their income taxes in 2010
than did in 2009 (13 percent).
In FY 2009, the IRS hired more than 2,000 revenue agents and tax compliance officers, which is
the largest hiring increase in the past 5 years. During FY 2010, hiring continued at an increased
pace, with the addition of nearly 1,300 revenue agents and tax compliance officers. As of the
end of FY 2010, the total number of field Examination function personnel who conduct
examinations of tax returns increased by 4 percent from FY 2009. The number of revenue
agents increased to 11,648, while the number of tax compliance officers increased to 1,400.28
Since FY 2006, the number of examiners in field offices29 has increased by approximately
12 percent.
The large staffing level increases in FY 2009 and FY 2010 resulted in the most tax returns
examined in the past 5 years. After decreasing slightly in FY 2008, the percentage of tax returns
examined increased slightly during FY 2009 and subsequently increased by nearly 8 percent in
FY 2010. In FY 2009, the IRS realized increases in the dollar yield per hour for individual tax
return examinations performed by tax compliance officers as well as for individual, corporate,
and other types of tax return examinations performed by revenue agents.30 However, in FY 2010
the dollar yield per hour decreased for each of those categories.
It was expected that the IRS would not immediately realize an increase in productivity from
these new hires because of the time required to train them and because experienced examiners
will need to be used as training coaches and classroom instructors, which reduces their
availability to conduct examinations. However, the increase in tax returns examined indicates
that these employees are having an effect on productivity.

Overall, the number of tax returns examined increased, but most examinations
were conducted via correspondence
IRS examinations can range from the issuance of an IRS notice asking for clarification of a
single tax return item that appears to be incorrect (correspondence examination) to a face-to-face

28
   See Appendix IV, Figure 23.
29
   Examiners in field offices include revenue agents, tax compliance officers, tax examiners, and RO examiners.
30
   See Appendix IV, Figures 25 through 28.
                                                                                                           Page 9
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2010



interview and review of the taxpayer’s records. Differentiating these two types of contact
between the IRS and taxpayers is important when reviewing examination coverage rates, and
caution should be taken in combining statistics from the various Examination function programs.
Face-to-face examinations are generally more comprehensive and time consuming for the IRS
and the taxpayers, and typically result in higher dollar adjustments to the tax amounts. However,
during FY 2010, 73 percent of all examinations were conducted via correspondence.
The IRS also uses several computer-matching and automated error-checking routines to verify
the accuracy of tax returns.31 These routines often identify adjustments to tax liabilities.
However, these adjustments are not included in the traditional “audit rates” and are not reported
separately as enforcement efforts. In FYs 2009 and 2010, the IRS experienced large increases in
these adjustments due to the necessity of computing recovery rebate credits and Making Work
Pay Credits for those taxpayers who had not initially claimed them on their tax returns.
The overall percentage of tax returns examined in FY 2010 (including face-to-face and
correspondence examinations) increased nearly 8 percent32 from FY 2009. This is the largest
overall number of tax returns examined over the past 5 years and an increase from FY 2006 of
17 percent.
Increased staffing in the                     Figure 4: Percentage Change in the
Examination function is             Number of Field Examiners and Examinations
allowing the IRS to                                  Total Field Examiners         Total Field Examinations
continue to increase the              15%

number of tax returns
examined. Figure 4 shows              10%
that compared with prior
years, Examination function             5%
staffing has significantly
increased, primarily due to
                                        0%
the hiring of additional
examiners in FYs 2009 and
                                       -5%
2010.                                    FY 2006     FY 2007               FY 2008           FY 2009        FY 2010

                                              Source: IRS Data Book and Examination Table 37.




31
  See Appendix IV, Figures 47 and 48.
32
  The IRS has traditionally calculated the percentage of examination coverage by dividing the number of returns
examined in the current fiscal year by the number of returns filed in the preceding calendar year.
                                                                                                             Page 10
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2010



Examination rates for the various types of tax returns showed mixed results
The following paragraphs summarize examination coverage for various types of tax returns:
     •   Individual Income Tax Return Examinations – FY 2006 represented the 5-year low, with
         only 1,283,950 (1 of every 103) individual income tax returns examined. Since then, the
         number of tax returns examined has continuously increased and 1,581,394 (1 of every 90)
         were examined in FY 2010. This is a 23 percent increase over FY 2006.33
         During FY 2010, more than 82 percent of the examinations of individuals were
         performed by correspondence.34 Only 1 of every 503 individual income tax returns filed
         received a face-to-face examination (a 4 percent increase in coverage over FY 2009),
         while 1 of every 110 received a correspondence examination (a more than 8 percent
         increase in coverage over FY 2009).
         The TIGTA reviewed the Correspondence and Discretionary Examination Program in the
         Small Business/Self-Employed Division’s Campus Compliance Services function, as well
         as the Reporting Compliance function in the Wage and Investment Division. Taxpayers
         had expressed concerns with the length of the examination process, the lack of
         consideration given to their information sent to the IRS, and treatment by IRS employees.
         The IRS has taken steps to reengineer the examination process and improve employee
         compliance with the Correspondence and Discretionary Examination Program guidelines,
         which could ultimately lessen taxpayer burden and increase taxpayer rights and
         entitlements. However, the TIGTA found that employees did not follow established
         procedures and/or guidelines when processing correspondence that taxpayers submit for
         examinations of their tax returns and taxpayer burden continues to exist.35
     •   Corporate Income Tax Return Examinations – The number of corporate income tax
         returns examined36 increased more than 5 percent in FY 2010, after decreasing by more
         than 7 percent during FY 2009. However, the number of examinations has increased by
         only 3 percent since FY 2006. From FY 2006 through FY 2010, the total number of
         corporate tax returns examined increased from 28,427 (1 of every 80 returns filed) in
         FY 2006 to a 5-year high of 29,986 (1 of every 74 returns filed) in FY 2008. In FY 2009
         there was a decrease to 27,834 (1 of every 79 returns filed), followed by an increase to



33
   This includes examinations conducted by employees located in field offices and campuses. See Appendix IV,
Figures 31 and 32.
34
   We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
35
   Progress Has Been Made to Reengineer the Examination Program, but Additional Improvements Are Needed to
Reduce Taxpayer Burden (Reference Number 2011-30-016, dated February 18, 2011).
36
   This information excludes returns for foreign corporations, S Corporations, and Cooperative Associations.
                                                                                                           Page 11
                                          Trends in Compliance Activities
                                             Through Fiscal Year 2010



         29,334 (1 of every 72 returns filed) in FY 2010.37 Meanwhile, the number of corporate
         income tax returns filed decreased by more than 8 percent during the 5-year period.
         The number of corporate tax returns examined with assets of less than $10 million
         increased by almost 5 percent in FY 2010. During the same period, the number of
         corporate tax returns examined with assets of $10 million and greater increased by more
         than 7 percent, but within this category, examinations of returns with assets of
         $250 million and greater decreased by nearly 9 percent.
         Currently, the IRS’s National Research Program is planning a Corporate Income Tax
         study to enhance tax administration of United States corporations. The last time that the
         IRS collected data on how well corporations complied with the tax law was in Calendar
         Year 1988, under the Taxpayer Compliance Measurement Program. Updating this data
         will allow the IRS to increase its ability to ensure corporate entities correctly report and
         pay taxes on the hundreds of billions of dollars of income they earn every year.
     •   S Corporation Return Examinations – The number of S Corporation tax returns examined
         increased by almost 25 percent from FY 2006 to FY 2009, but there was a decrease of
         more than 6 percent in FY 2010. The number of tax returns examined decreased from
         1 of every 266 returns filed in FY 2006 to 1 of every 270 returns filed in FY 2010.
         During the same period, the number of S Corporation returns filed has increased by
         approximately 19 percent. However, during FY 2010 the number of returns filed
         increased by approximately 0.5 percent, which is the smallest increase in the past
         5 years.38
     •   Partnership Return Examinations – The number of partnership returns examined
         decreased by more than 3 percent in FY 2010; this is the second straight year in which a
         decrease was noted. Returns examined remain up by more than 27 percent since the
         5-year low in FY 2006. The number of returns filed increased by approximately
         26 percent between FYs 2006 and 2010.39 About 1 of every 279 returns filed was
         examined in FY 2006. This increased to about 1 of every 276 for FY 2010.
     •   Other Tax Type Examinations (Fiduciary, Employment, Excise, Estate, and Gift Taxes) –
         The overall number of examinations in these 5 classes remained consistent, increasing by
         only 1 percent in FY 2010. After experiencing a decrease of almost 17 percent during
         FY 2008, the overall number of examinations increased by almost 8 percent during
         FY 2009. In FY 2010, increases in the overall number of examinations in gift, excise,
         and fiduciary classes, of 13, 6, and 1 percent, respectively, were offset by a decrease in



37
   See Appendix IV, Figures 31, 37, and 38 for coverage by size of corporation.
38
   See Appendix IV, Figures 31 and 40.
39
   See Appendix IV, Figures 31 and 41.
                                                                                              Page 12
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2010



           the examinations within the Estate class of approximately 4 percent. Examinations in the
           Employment class decreased by less than 0.1 percent.40

Some Examination function productivity indicators decreased
Figure 5 shows the dollar yield per hour for FYs 2006 through 2010 for revenue agents and tax
compliance officers. The FY 2010 dollar yield per hour for examinations of individual tax
returns decreased by less than 3 percent for revenue agents and less than 0.5 percent for tax
compliance officers after increasing in FY 2009 by more than 18 percent and nearly 21 percent,
respectively. These are the
smallest percentage changes
for either group in the past                   Figure 5: Examination Function
5 years.                                             Dollar Yield per Hour

The yield also decreased for                                RA - Individual   TCO - Individual       RA - Corporate

revenue agent examinations of                 $3,200


corporate tax returns during                  $2,800


FY 2010, by nearly 10 percent.                $2,400

This is the second straight year              $2,000

where the yields for revenue                  $1,600

agent examinations of                         $1,200
individual and corporate tax                   $800
returns have moved in parallel
                                               $400
directions.                                       FY 2006      FY 2007        FY 2008            FY 2009              FY 2010


The Examination function                Source: TIGTA analysis of Examination Table 37.
                                        RA = revenue agent. TCO = tax compliance officer.
dollar yield per hour for
individual income tax return
examinations by revenue agents has fluctuated over the past 5 years. While the hours per return
has varied, the yield fluctuation appears to be largely due to the varied dollar amounts per return
over the past 5 years, which have ranged between a low of $37,523 per return in FY 2008 to a
high of $50,670 per return in FY 2007.
The dollar yield per hour for individual income tax return examinations by tax compliance
officers decreased for the first time in 5 years. Dollar amounts per return consistently increased
over the past 5 years, with a 6 percent increase during FY 2010. Meanwhile the associated hours
per return also increased by 6 percent in FY 2010.
From FY 2006 to FY 2009, the hours spent examining each corporate tax return remained
relatively constant. However, in FY 2010 the hours expended on each return decreased by more
than 10 percent. The average dollar amounts assessed per return also decreased, by


40
     See Appendix IV, Figures 31 and 42 through 46.
                                                                                                                        Page 13
                                    Trends in Compliance Activities
                                       Through Fiscal Year 2010



approximately 19 percent in FY 2010. Prior to FY 2010, the average dollar amount assessed per
return had remained relatively constant from FY 2006 to FY 2009. The net effect of these
adjustments was that the dollar yield per hour for corporate tax return examinations decreased by
nearly 36 percent in FY 2007, followed by increases of 5 and 15 percent, in FY 2008 and
FY 2009, respectively. During FY 2010, the dollar yield per hour decreased by nearly
10 percent, but remained above FY 2008 levels.41
After decreasing or remaining the same from FYs 2006 to 2009, IRS data indicate that the
no-change rates for individual tax returns examined by revenue agents and by tax compliance
officers increased in FY 2010. These no-change rates for FY 2010 remain 21 percent and
23 percent lower for revenue agents and tax compliance officers, respectively, than the
no-change rates reported in FY 2006. No-change rate results of revenue agent examinations of
corporate tax returns have fluctuated up and down over the past 5 years. The no-change rates of
revenue agent examinations of other types of tax returns increased for the third consecutive year,
and the no-change rate of revenue agent examinations of partnership returns increased 19 percent
over FY 2009.42 The IRS continues to conduct studies with the goal of improving the return
selection process to increase rates of return across the enforcement program.

Conclusion
The IRS faced many challenges during FY 2010, including implementation of provisions related
to new tax legislation, the condition of the economy, and changes to its workforce. Several
indicators showed the impact of these challenges, including little change in gross collections, an
increase in accounts receivable, and an increase in the number of cases that might never be
worked. However, many other indicators increased, including increases in the number of
delinquent cases being closed, enforcement revenue collected, and examinations performed.
These indicators could suggest that the hiring and training of new personnel is having a positive
impact on the IRS’s ability to enforce the Nation’s tax laws, even though the full benefit from
these individuals has yet to be realized.




41
     See Appendix IV, Figure 26.
42
     See Appendix IV, Figure 29.
                                                                                          Page 14
                                           Trends in Compliance Activities
                                              Through Fiscal Year 2010



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide various statistical information regarding
Collection and Examination function activities. We conduct this review each year, and it is
included as part of our FY 2011 Annual Audit Plan and addresses the major management
challenge of Tax Compliance Initiatives. To accomplish our objective, we:
I.         Obtained and analyzed information relating to compliance activities.
           A. Obtained and analyzed Collection function data. This included, but was not limited
              to:
               1. Staffing.
               2. Direct and indirect time.
               3. Delinquent account inventories and unfiled return investigations.
               4. Enforcement actions (liens, levies, and seizures).1
           B. Obtained and analyzed Examination function data. This included, but was not limited
              to:
               1. Staffing.
               2. Direct and indirect time.
               3. Coverage of individual and business tax returns compared to the number of
                  returns filed for each type of return.
               4. Productivity results for individual and business tax returns.
           C. Obtained and analyzed other Compliance related data. This included, but was not
              limited to:
               1. Enforcement Revenue.
               2. Gross collections and accounts receivable.
               3. Math Error, Underreporter, and Automated Substitute for Return cases.
           D. Reviewed applicable TIGTA and Government Accountability Office reports for
              relevant information.

1
     See Appendix VI for a Glossary of Terms.
                                                                                          Page 15
                                   Trends in Compliance Activities
                                      Through Fiscal Year 2010



       E. Discussed aberrations in the data with applicable IRS personnel.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective. Our analyses
were limited to identifying changes and trends in data prepared and reported by the IRS.




                                                                                        Page 16
                                  Trends in Compliance Activities
                                     Through Fiscal Year 2010



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Audit Manager
Curtis J. Kirschner, Lead Auditor
Doris Cervantes, Senior Auditor




                                                                                      Page 17
                                 Trends in Compliance Activities
                                    Through Fiscal Year 2010



                                                                       Appendix III

                         Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                             Page 18
                                               Trends in Compliance Activities
                                                  Through Fiscal Year 2010



                                                                                                           Appendix IV

              Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax .............................................................. Page 22
Figure 2 – Amount of Enforcement Revenue Collected Compared to
           Gross Accounts Receivable ........................................................................ Page 22
Figure 3 – Gross Accounts Receivable by Source of Assessment ............................... Page 23
Figure 4 – Total Amount Collected During Notice Status........................................... Page 23
Figure 5 – Amount Collected During Notice Status for Selected Sources
           of Assessment ............................................................................................. Page 24
Figure 6 – Number of CFf ROs Assigned Delinquent Cases
           at the End of Each Year .............................................................................. Page 24
Figure 7 – Average Dollars Collected per Staff Year on TDA Tax Periods
           by the CFf ................................................................................................... Page 25
Figure 8 – Net Amounts Collected on TDA Tax Periods by the CFf and ACS .......... Page 25
Figure 9 – Total Dollars Collected by Number of Weeks Assigned to the ACS ......... Page 26
Figure 10 – Total Dollars Collected by Number of Weeks Assigned to the CFf .......... Page 26
Figure 11 – Taxpayers With TDAs and TDIs Maintained in the Queue ....................... Page 27
Figure 12 – TDA and TDI Tax Periods Shelved or Surveyed ....................................... Page 27
Figure 13 – Gap Between TDI Tax Period Receipts and Closures, Including
            TDI Tax Period Closures as a Percentage of Receipts ............................... Page 28
Figure 14 – Number of TDI Tax Periods Closed by Collection Functions ................... Page 28
Figure 15 – Number of TDI Tax Periods Closed by Collection Functions
            With Receipt of a Delinquent Tax Return .................................................. Page 29
Figure 16 – Gap Between TDA Tax Period Receipts and Closures, Including
            TDA Closures as a Percentage of Receipts ................................................ Page 29
Figure 17 – Number of Taxpayers and Amount Owed in Queue Inventory.................. Page 30


                                                                                                                       Page 19
                                               Trends in Compliance Activities
                                                  Through Fiscal Year 2010



Figure 18 – Number of TDA Tax Periods Closed by Collection Functions,
            Excluding Shelved Accounts ...................................................................... Page 30
Figure 19 – Number of TDA Tax Periods Closed With Full Payment by
            Collection Functions ................................................................................... Page 31
Figure 20 – Number of Liens Filed by the CFf and ACS .............................................. Page 31
Figure 21 – Number of Levies Issued by the CFf and ACS .......................................... Page 32
Figure 22 – Number of Seizures .................................................................................... Page 32
Figure 23 – Number of Examination Function Staff Conducting Examinations
            of Tax Returns at the End of Each Year ..................................................... Page 33
Figure 24 – Percentage Change From FY 2006 of All Tax Returns Filed
            and Examined ............................................................................................. Page 33
Figure 25 – Revenue Agent Results on U.S. Individual Income Tax Returns
            (Form 1040), Percentage Change From FY 2006 ...................................... Page 34
Figure 26 – Revenue Agent Results on Corporate Income Tax Returns,
            Percentage Change From FY 2006 ............................................................. Page 34
Figure 27 – Revenue Agent Results on Other Types of Tax Returns, Percentage
            Change From FY 2006 ............................................................................... Page 35
Figure 28 – Tax Compliance Officer Results on Forms 1040, Percentage Change
            From FY 2006 ............................................................................................ Page 35
Figure 29 – Revenue Agent and Tax Compliance Officer No-Change Rates for
            Various Types of Tax Returns .................................................................... Page 36
Figure 30 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence .......................................................................................... Page 36
Figure 31 – Numbers and Percentages of Individual and Business Tax Returns
            Examined .................................................................................................... Page 37
Figure 32 – Percentage Change From FY 2006 of Forms 1040 Filed and
            Examined .................................................................................................... Page 38
Figure 33 – Number of Forms 1040 Filed and Examined ............................................. Page 38
Figure 34 – Percentage Change From FY 2006 of Corporate Income Tax Returns
            Filed and Examined .................................................................................... Page 39

                                                                                                                       Page 20
                                               Trends in Compliance Activities
                                                  Through Fiscal Year 2010



Figure 35 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Less Than $10 Million ................................. Page 39
Figure 36 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Greater ............................... Page 40
Figure 37 – Number of Tax Returns Filed and Examined – Corporations With
            Assets of Less Than $10 Million ................................................................ Page 40
Figure 38 – Number of Tax Returns Filed and Examined – Corporations With
            Assets of $10 Million and Greater .............................................................. Page 41
Figure 39 – Percentage Change From FY 2006 of Forms 1120S Filed and
            Examined .................................................................................................... Page 41
Figure 40 – Number of Forms 1120S Filed and Examined ........................................... Page 42
Figure 41 – Number of Tax Returns Filed and Examined – Partnerships ..................... Page 42
Figure 42 – Number of Tax Returns Filed and Examined – Fiduciaries ....................... Page 43
Figure 43 – Number of Tax Returns Filed and Examined – Employment Tax ............. Page 43
Figure 44 – Number of Tax Returns Filed and Examined – Excise Tax ....................... Page 44
Figure 45 – Number of Tax Returns Filed and Examined – Estates.............................. Page 44
Figure 46 – Number of Tax Returns Filed and Examined – Gift Tax ........................... Page 45
Figure 47 – Number of Other Compliance Contacts on Forms 1040 ............................ Page 45
Figure 48 – Other Compliance Contacts – Forms 1040 Coverage Rate ........................ Page 46




                                                                                                                       Page 21
                                                                                   Trends in Compliance Activities
                                                                                      Through Fiscal Year 2010



                                                                 Figure 1: Gross Collections by Type of Tax 1
                                                  $3.0
                                                                                                  2.7
                                                                             2.7

                                                          2.5
                                                  $2.5                                                                 2.3              2.3
                                                                                                                                              Total

                                                  $2.0



                                                                                                  1.4
                                                  $1.5                       1.4
                     Trillions




                                                          1.2
                                                                                                                       1.2             1.2
                                                                                                                                              Individual
                                                  $1.0                       0.8                  0.9
                                                          0.8                                                          0.9             0.8
                                                                                                                                              Employment

                                                  $0.5                       0.4                  0.4
                                                          0.4
                                                                                                                       0.2              0.3
                                                                                                                                              Corporate
                                                  $0.0
                                                    FY 2006                FY 2007              FY 2008           FY 2009               FY 2010


                Source: TIGTA analysis of the IRS Data Book.



                                                         Figure 2: Amount of Enforcement Revenue Collected
                                                               Compared to Gross Accounts Receivable

                                                                          Enforcement Revenue             Gross Accounts Receivable

                                                  $100                                                                                         $380    Gross Accounts Receivable (Billions)
                                                                                                                                359
                 Enforcement Revenue (Billions)




                                                                                                                                               $360
                                                  $90

                                                                                                                 328                           $340
                                                  $80
                                                                                                                                               $320
                                                                                                  304

                                                  $70                              290                                                         $300

                                                                  271                                                                          $280
                                                  $60
                                                                                   59.2                                                        $260
                                                                                                 56.4                           57.6
                                                  $50
                                                                                                                                               $240
                                                                 48.7                                           48.9

                                                  $40                                                                                          $220
                                                                FY 2006       FY 2007           FY 2008       FY 2009         FY 2010


               Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.


1
  Income tax on estates and trusts is included in individual income tax in FYs 2005–2008. Beginning with FY 2009,
the IRS amended this reporting, and estate and trust income tax is reported separately. Estate and trust income tax
for FY 2010 equaled approximately $12 billion. The total line includes excise, estate, and gift taxes also, not just
individual, corporate, and employment.
                                                                                                                                                                                              Page 22
                                      Trends in Compliance Activities
                                         Through Fiscal Year 2010



              Figure 3: Gross Accounts Receivable by Source of Assessment

       $120

                                                                                 SFR/6020(b)
       $100
                                                                                 Balance Due

             $80
Billions




             $60                                                                 Examination
                                                                                 Other

             $40
                                                                                 TDI

             $20
                                                                                 TFRP

                                                                                 Math Error
              $0
              FY 2006       FY 2007         FY 2008     FY 2009          FY 2010

Source: TIGTA analysis of data received from the Office of the Chief Financial Officer.
TFRP = Trust Fund Recovery Penalty.


                   Figure 4: Total Amount Collected During Notice Status
             $12
                             10.23
                                              9.41                        9.38
             $10    8.90
                                                           8.64                    Total

             $8
                              6.00
  Billions




                                              5.62
             $6                                            5.14
                   4.67                                                   4.87
                                                                                   Individual

             $4
                                                                          4.51 Business
                    4.23      4.23
                                              3.79
                                                           3.50
             $2


             $0
             FY 2006        FY 2007         FY 2008      FY 2009          FY 2010

Source: Collection Report 5000-2/242.




                                                                                                Page 23
                                     Trends in Compliance Activities
                                        Through Fiscal Year 2010



                        Figure 5: Amount Collected During Notice Status
                               for Selected Sources of Assessment

                                       SFR/6020(b)        Math Error      Examination
           $3,500

           $3,000

           $2,500
Millions




           $2,000
                                                                                          2,511
           $1,500
                             1,931      1,830
                                                          1,412          1,389
           $1,000

             $500
                              314        316              298             342              417
                   $0
                           FY 2006     FY 2007        FY 2008           FY 2009         FY 2010

Source: Collection Report 5000-2/242.



                             Figure 6: Number of CFf ROs Assigned
                            Delinquent Cases at the End of Each Year

           4,500

           4,000
                                                                                         4,068
                          3,876
           3,500                      3,724                             3,752
                                                      3,613

           3,000

           2,500

           2,000                                      `


           1,500

           1,000

            500

              0
                         FY 2006     FY 2007         FY 2008           FY 2009          FY 2010

Source: Collection Report 5000-23.




                                                                                                  Page 24
                                                           Trends in Compliance Activities
                                                              Through Fiscal Year 2010



                                                Figure 7: Average Dollars Collected
                                           per Staff Year on TDA Tax Periods by the CFf

              $600,000


              $550,000                                 567,733
                                        554,909

                                                                    520,446
              $500,000


              $450,000                                                                    462,368
                                                                              446,561

              $400,000


              $350,000


              $300,000


              $250,000


              $200,000
                                        FY 2006        FY 2007      FY 2008   FY 2009     FY 2010

             Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.


                                                  Figure 8: Net Amounts Collected
                                              on TDA Tax Periods by the CFf and ACS2

                          $7,000
                                                   6,344
                                   6,170                                                      6,319
                                                                                                      Total
                          $6,000                                    5,604
                                                                                 5,476


                          $5,000
               Millions




                          $4,000                   3,661
                                   3,601
                                                                    3,235
                                                                                              3,217
                                                                                                      ACS
                          $3,000                                                 2,794
                                                                                                      CFf
                                                                                              3,101

                                   2,569           2,683                         2,681
                          $2,000                                    2,370




                          $1,000
                              FY 2006             FY 2007          FY 2008      FY 2009         FY 2010

             Source: Collection Report 5000-2.


2
 The dollars collected shown in Figure 8 are the net amounts collected after adjustments, such as refunds, are
considered. The amounts in Figures 9 and 10 are larger because they show the gross amounts collected.
                                                                                                              Page 25
                                                                          Trends in Compliance Activities
                                                                             Through Fiscal Year 2010



                                                                     Figure 9: Total Dollars Collected
                                                                 by Number of Weeks Assigned to the ACS
                                                            0-8 Weeks      9-25 Weeks    26-52 Weeks   Over 52 Weeks   Total

                                                 $4,000
                                                                                                                        3,619

                                                 $3,500

                                                                          2,979                           3,001
                                                 $3,000
                  Dollars Collected (Millions)




                                                                                          2,667
                                                           2,830

                                                 $2,500



                                                 $2,000

                                                                                                                        1,572
                                                 $1,500
                                                                                                          1,241
                                                          1,169           1,149
                                                                                          1,045
                                                 $1,000    974                                                           920
                                                                           821                             727
                                                                                            728

                                                                              649                                594     699
                                                  $500                                        558
                                                          487
                                                                                                             439         429
                                                                              360            336
                                                          200
                                                    $0
                                                     FY 2006             FY 2007         FY 2008         FY 2009         FY 2010


Source: Collection Report 5000-2.


                                                                     Figure 10: Total Dollars Collected
                                                                  by Number of Weeks Assigned to the CFf
                                                          0-8 Weeks       9-25 Weeks    26-52 Weeks    Over 52 Weeks   Total
                                                 $4,500


                                                 $4,000                   3,846
                                                          3,777

                                                                                          3,464
                                                 $3,500
Dollars Collected (Millions)




                                                                                                          2,983        3,274
                                                 $3,000


                                                 $2,500


                                                 $2,000
                                                          1,605
                                                                          1,540
                                                                                          1,453
                                                 $1,500                                                   1,275        1,248
                                                          1,137
                                                                           954                                          982
                                                 $1,000                                     836
                                                                                                          713
                                                                        853
                                                          721                                730           681           707
                                                  $500
                                                          314              498
                                                                                          446
                                                                                                           314          337
                                                    $0
                                                     FY 2006             FY 2007        FY 2008          FY 2009        FY 2010

Source: Collection Report 5000-2.


                                                                                                                                   Page 26
                                                                                  Trends in Compliance Activities
                                                                                     Through Fiscal Year 2010



             Figure 11: Taxpayers With TDAs and TDIs Maintained in the Queue3

                                                                              Taxpayers With TDAs                        Taxpayers With TDIs

                                                      1,200


                                                                                                                             1,109
                                                      1,000
               Number of Taxpayers (Thousands)




                                                                                        998          981
                                                                                                                                               949
                                                                                867                                                    888
                                                       800                                                      851
                                                                      825
                                                               779
                                                                                                                                                      711
                                                       600



                                                       400



                                                       200



                                                         0
                                                                FY 2006           FY 2007                 FY 2008              FY 2009          FY 2010

              Source: Collection Reports 5000-2 and 5000-4.


                                                        Figure 12: TDA and TDI Tax Periods Shelved or Surveyed

                                                                                        TDA Tax Periods                    TDI Tax Periods

                                                       3,000
                                                                                         2,954
                  Number of Tax Periods (Thousands)




                                                       2,500



                                                       2,000



                                                       1,500
                                                                                                                                                1,571
                                                                                                                 1,478

                                                       1,000          1,080
                                                                                                                                 989                      1,030
                                                                                                          890
                                                                                  764
                                                        500     613
                                                                                                                                         522


                                                          0
                                                                 FY 2006           FY 2007                  FY 2008               FY 2009            FY 2010

              Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.



3
 In recent years, the IRS removed from the Queue a large number of TDA cases that were considered to be
potentially less productive than other Queue inventory (see Figure 12). The increase in TDAs could be at least
partially attributed to the additional compliance assessments from working additional Automated SFR cases (Figures
47 and 48) and the declining economy.
                                                                                                                                                                  Page 27
                                                                                               Trends in Compliance Activities
                                                                                                  Through Fiscal Year 2010



                                                         Figure 13: Gap Between TDI Tax Period Receipts and Closures,
                                                         Including TDI Tax Period Closures as a Percentage of Receipts4

                                                                          TDI Receipts                 TDI Closures                  Closures as a Percentage of Receipts
                                                        7,000                                                                                                                             200%
                                                                                                                    181%
                                                                                                                                              169%




                                                                                                                                                                                                  Closures as a Percentage of Receipts
                                                        6,000
            Number of Tax Periods (Thousands)




                                                                                                                                                                           144%
                                                                          131%                                                                                                            150%
                                                                                           129%
                                                        5,000


                                                                                                                                                                                          100%
                                                        4,000             4,220                 4,198
                                                                                                                         4,032                     4,139                    4,022

                                                        3,000   3,222                3,242
                                                                                                                                                                                          50%
                                                                                                                                                                   2,794
                                                                                                                                         2,450
                                                        2,000                                                   2,233

                                                                                                                                                                                          0%
                                                        1,000


                                                           0                                                                                                                              -50%
                                                                  FY 2006                FY 2007                  FY 2008                    FY 2009                 FY 2010

           Source: TIGTA analysis of Collection Report 5000-4.


            Figure 14: Number of TDI Tax Periods Closed by Collection Functions

                                                                                               Queue               CFf                 ACS                  CSCO

                                                        2,500
                    Number of Tax Periods (Thousands)




                                                                                                                                                             1,987
                                                        2,000                                           1,906
                                                                                                                                 1,823
                                                                                                                                                                                          1,769


                                                        1,500                1,438

                                                                        1,177
                                                                                                                                                                                        998
                                                        1,000                                        898
                                                                                                                               777                         800

                                                                800 805                                                                                                           839
                                                                                               772                 766
                                                                                                                         667                     700 653
                                                          500                            622
                                                                                                                                                                            416


                                                            0
                                                                    FY 2006                    FY 2007                   FY 2008                    FY 2009                       FY 2010

           Source: TIGTA analysis of Collection Report 5000-4.
           CSCO = Compliance Services Collection Operations.



4
 The closures shown in Figures 13 and 14 do not include the TDIs shelved or surveyed, which are shown in
Figure 12.
                                                                                                                                                                                                                                         Page 28
                                                                                               Trends in Compliance Activities
                                                                                                  Through Fiscal Year 2010



              Figure 15: Number of TDI Tax Periods Closed by Collection Functions
                           With Receipt of a Delinquent Tax Return

                                                                                            Queue                  CFf               ACS             CSCO

                                                      2,000




                                                                                                                                                              1,540
               Number of Tax Periods (Thousands)




                                                                                                           1,484
                                                      1,500
                                                                                                                                     1,289
                                                                                                                                                                                      1,219

                                                                                1,067

                                                      1,000




                                                       500
                                                                          539                                                                                                       510
                                                                                                                                                         438
                                                                                                     399                       375
                                                                    310                        328
                                                                                                                     266 286                   257 267                        291
                                                              222                        249
                                                                                                                                                                        160
                                                          0
                                                                    FY 2006                    FY 2007                     FY 2008                   FY 2009                  FY 2010

              Source: TIGTA analysis of Collection Report 5000-4.
              CSCO = Compliance Services Collection Operations.

                                                      Figure 16: Gap Between TDA Tax Period Receipts and Closures,
                                                            Including TDA Closures as a Percentage of Receipts5

                                                                                   TDA Receipts             TDA Closures             Closures as a Percentage of Receipts
                                                      9,000                                                                                                                               90%

                                                                                                                                                  79%
                                                      8,000                                                                                                                               80%
                  Number of Tax Periods (Thousands)




                                                                          81%                                               73%
                                                                                                     73%
                                                      7,000                                                                                                                   72%         70%

                                                      6,000                                                                                                                               60%

                                                      5,000                                                                                                                               50%

                                                      4,000                                                                                                           7,909               40%
                                                                                         7,130                      7,104                    6,874
                                                      3,000   6,066                                                                                                                       30%
                                                                                                                                                      5,396                   5,698
                                                                          4,891                   5,216                      5,217
                                                      2,000                                                                                                                               20%

                                                      1,000                                                                                                                               10%

                                                         0                                                                                                                                0%
                                                                FY 2006                    FY 2007                       FY 2008                FY 2009                 FY 2010


               Source: TIGTA analysis of Collection Report 5000-2.


5
    The closures shown in Figure 16 do not include the TDAs shelved, which are shown in Figure 12.
                                                                                                                                                                                                Page 29
                                                                                               Trends in Compliance Activities
                                                                                                  Through Fiscal Year 2010



           Figure 17: Number of Taxpayers and Amount Owed in Queue Inventory6

                                                                                        Amounts Owed in the Queue                         Number of Taxpayers

                                                       $60,000                                                                                                                       1,200
                                                                                                                                             1,109

                                                                                                                      981
                                                       $50,000                                                                                                       949             1,000




                                                                                                                                                                                             Number of Taxpayers (Thousands)
                                                                                                867
                                                                                                                                            $45,863              $46,239
                            Amount Owed (Millions)




                                                                          779                                       $43,210
                                                       $40,000                                                                                                                       800


                                                                                              $34,863
                                                       $30,000                                                                                                                       600

                                                                       $27,227

                                                       $20,000                                                                                                                       400



                                                       $10,000                                                                                                                       200



                                                             $0                                                                                                                      0
                                                                       FY 2006                FY 2007               FY 2008                 FY 2009              FY 2010


           Source: TIGTA analysis of Collection Report 5000-2.


                                                                    Figure 18: Number of TDA Tax Periods Closed
                                                                  by Collection Functions, Excluding Shelved Accounts

                                                                                              ACS               CFf                 Queue                 CSCO

                                                     4,000
                                                                                                                                                                     3,851
                                                                                                                                          3,630
                                                                                      3,492                    3,462
            Number of Tax Periods (Thousands)




                                                     3,500
                                                             3,265

                                                     3,000


                                                     2,500


                                                     2,000


                                                     1,500                                                                                                                   1,417
                                                                                          1,226                                                   1,249
                                                                                                                       1,201
                                                                  1,097
                                                     1,000


                                                      500
                                                                          480                       445                       477                        469
                                                                                 49                                                  76                         48                   401
                                                                                                          52                                                                                 29
                                                        0
                                                                     FY 2006                  FY 2007                  FY 2008                       FY 2009                 FY 2010

           Source: TIGTA analysis of Collection Report 5000-2.
           CSCO = Compliance Services Collection Operations.


6
 The increase shown here could be at least partially attributed to the additional compliance assessments from
working additional Automated SFR cases (Figures 47 and 48) and the declining economy.
                                                                                                                                                                                                                               Page 30
                                                                                 Trends in Compliance Activities
                                                                                    Through Fiscal Year 2010



                                                         Figure 19: Number of TDA Tax Periods Closed
                                                           With Full Payment by Collection Functions

                                                                            ACS                   CFf                  Queue                   CSCO

                                        1,600


                                        1,400                                                     1,364
Number of Tax Periods (Thousands)




                                                                                                                                                           1,272
                                                                                                                               1,170
                                        1,200

                                                                        1,018
                                        1,000    935


                                         800


                                         600


                                         400
                                                       397                      398
                                                                                                          360                                                      357
                                                                                                                                       320
                                         200
                                                             195                      193                       216                          200
                                                                                            29                         47                                                 171
                                                                   21                                                                               27                          16
                                           0
                                                       FY 2006                  FY 2007                   FY 2008                      FY 2009                     FY 2010

Source: TIGTA analysis of Collection Report 5000-2.
CSCO = Compliance Services Collection Operations.


                                                 Figure 20: Number of Liens Filed by the CFf and ACS

                                                                                            CFf                       ACS                          Total

                                         1,200

                                         1,100                                                                                                                                   1,096
                                                                                                                                             966
                                         1,000

                                          900

                                                                                                                768
                                          800
                            Thousands




                                                                                      684
                                          700                630

                                          600                                                                                                                                   554
                                                                                                                                                                     542
                                                                                                                                        474        492
                                          500
                                                                                                           430
                                                                                407
                                          400          349                                                            338
                                                               281                      276
                                          300

                                          200
                                                        FY 2006                  FY 2007                    FY 2008                      FY 2009                         FY 2010

Source: TIGTA analysis of Collection Report 5000-23.



                                                                                                                                                                                         Page 31
                                                          Trends in Compliance Activities
                                                             Through Fiscal Year 2010



                                         Figure 21: Number of Levies Issued by the CFf and ACS

                                                                   CFf             ACS

                               4,000


                               3,500
Number of Levies (Thousands)




                               3,000


                               2,500

                                                                                                    2,939
                               2,000         3,497        3,447
                                                                                          3,092

                               1,500                                      2,257


                               1,000


                                500
                                                                                                    667
                                              246          310             374             386
                                     0
                                            FY 2006      FY 2007         FY 2008         FY 2009   FY 2010

Source: TIGTA analysis of Collection Report 5000-23.



                                                      Figure 22: Number of Seizures

                               700

                                                         676
                               600
                                                                          610                       605
                                            590                                           581
                               500


                               400


                               300


                               200


                               100


                                 0
                                           FY 2006      FY 2007          FY 2008         FY 2009   FY 2010

Source: IRS Data Book.




                                                                                                             Page 32
                                         Trends in Compliance Activities
                                            Through Fiscal Year 2010



    Figure 23: Number of Examination Function Staff Conducting
        Examinations of Tax Returns at the End of Each Year

                                          Revenue Agent             Tax Compliance Officer

 12,000
                                                                                                      11,648
                                                                                  11,238
 10,000      10,513
                                  10,121                   10,080


  8,000



  6,000



  4,000



  2,000

                                                                                              1,267              1,400
                      1,145                  1,060                   1,110
       0
                FY 2006                 FY 2007               FY 2008                 FY 2009            FY 2010

 Source: TIGTA analysis of Examination Table 37.


                      Figure 24: Percentage Change From FY 2006
                         of All Tax Returns Filed and Examined

 25%
                                                                                                       23.38%      Returns
                                                                                                                   Examined

 20%



 15%
                                                                                       12.2%
                              10.3%
                                                           9.6%
 10%

                                                                                                        5.76%       Returns
  5%                                                                                   3.9%                         Filed
                                                           3.5%

                               1.4%

  0%
   FY 2006                    FY 2007                     FY 2008                    FY 2009                   FY 2010

Source: TIGTA analysis of the IRS Data Book.




                                                                                                                              Page 33
                                              Trends in Compliance Activities
                                                 Through Fiscal Year 2010



                  Figure 25: Revenue Agent Results on U.S. Individual Income Tax
                      Returns (Form 1040), Percentage Change From FY 20067

                 20%

                 15%

                 10%

                  5%                                                                         Dollars per Hour

                  0%

                  -5%                                                                        Dollars per Return
                                                                                             Hours per Return
                 -10%

                 -15%

                 -20%
                   FY 2006          FY 2007         FY 2008          FY 2009          FY 2010

                Source: TIGTA analysis of Examination Table 37.


                           Figure 26: Revenue Agent Results on Corporate
                        Income Tax Returns, Percentage Change From FY 2006

                 0%

                 -5%

                -10%

                -15%
                                                                                        Hours per Return
                -20%

                -25%

                -30%                                                                    Dollars per Hour

                -35%

                -40%
                                                                                        Dollars per Return
                -45%
                  FY 2006          FY 2007         FY 2008         FY 2009         FY 2010

                Source: TIGTA analysis of Examination Table 37.




7
    Figures 25 through 29 do not include results from Coordinated Industry Cases or training returns.
                                                                                                                  Page 34
                           Trends in Compliance Activities
                              Through Fiscal Year 2010



            Figure 27: Revenue Agent Results on Other Types
            of Tax Returns, Percentage Change From FY 2006

25%




                                                                       Dollars per Hour
 0%                                                                    Dollars per Return
                                                                       Hours per Return




-25%




-50%
  FY 2006        FY 2007         FY 2008           FY 2009    FY 2010


Source: TIGTA analysis of Examination Table 37.


               Figure 28: Tax Compliance Officer Results
            on Forms 1040, Percentage Change From FY 2006

80%



60%

                                                                  Dollars per Return

40%                                                               Dollars per Hour



20%

                                                                  Hours per Return

 0%



-20%
  FY 2006        FY 2007        FY 2008           FY 2009    FY 2010

Source: TIGTA analysis of Examination Table 37.




                                                                                            Page 35
                                             Trends in Compliance Activities
                                                Through Fiscal Year 2010



                      Figure 29: Revenue Agent and Tax Compliance Officer
                        No-Change Rates for Various Types of Tax Returns

      50%

      45%                                                                                                   Revenue Agent ‐
                                                                                                            Partnership
      40%

      35%

      30%                                                                                                   Revenue Agent -
                                                                                                              Corporate
      25%
                                                                                                            Revenue Agent -
      20%                                                                                                       Other

      15%                                                                                                  Revenue Agent -
                                                                                                              Individual
      10%
                                                                                                             Tax Compliance
             5%                                                                                             Officer - Individual

             0%
             FY 2006              FY 2007             FY 2008                  FY 2009                  FY 2010

Source: TIGTA analysis of Examination Table 37.


                            Figure 30: Number of Forms 1040 Examined
                             Face-to-Face or Through Correspondence

                                                      Face-to-Face             Correspondence


             1,600
                                                                                                                   1,298
             1,400
                                                                                                1,161
                                             1,136                    1,139

             1,200       1,056
 Thousands




             1,000


              800


              600


              400


              200                                                                               265                 284
                         228                 249                      253


                  0
                        FY 2006             FY 2007                  FY 2008               FY 2009                FY 2010

Source: Analysis of Examination Closed Case Database.




                                                                                                                                   Page 36
                                        Trends in Compliance Activities
                                           Through Fiscal Year 2010



 Figure 31: Numbers and Percentages of Individual and Business Tax Returns Examined

                                         FY 2006        FY 2007     FY 2008     FY 2009     FY 2010

 Individual Returns
      Individuals (Forms 1040)           1,283,950      1,384,563   1,391,581   1,425,888   1,581,394
               Coverage Rate               0.97%         1.03%       1.01%       1.03%       1.11%

 Business Returns
   Corporations < $10 Million                  17,849     20,020      20,580      18,298      19,127
      Coverage Rate                            0.80%       0.92%       0.95%       0.85%       0.94%
   Corporations $10 Million and
                                               10,578       9,644       9,406       9,536     10,207
   Greater
      Coverage Rate                            18.60%     16.81%      15.26%      14.55%      16.58%
   S Corporations (Forms 1120S)                13,970     17,657      16,634      17,455      16,327
      Coverage Rate                            0.38%       0.45%       0.40%       0.40%       0.37%
   Partnerships                                 9,752     12,195      13,203      12,855      12,406
      Coverage Rate                            0.36%       0.42%       0.42%       0.38%       0.36%
   Fiduciaries                                  3,669       4,544       4,582       5,259      5,298
      Coverage Rate                            0.10%       0.12%       0.12%       0.17%       0.17%
   Employment                                  41,646     56,738      60,346      64,021      63,937
      Coverage Rate                            0.13%       0.18%       0.20%       0.21%       0.21%
   Excise                                      16,678     36,018      16,134      17,267      18,249
      Coverage Rate                            1.99%       4.02%       1.80%       1.85%       2.33%
   Estates                                      5,299       4,616       3,852       4,468      4,288
      Coverage Rate                            9.66%       7.70%       8.14%       9.26%      10.12%
   Gift                                         2,051       1,490       1,071       1,569      1,777
      Coverage Rate                            0.77%       0.56%       0.42%       0.61%       0.74%
Source: TIGTA analysis of the IRS Data Book.




                                                                                              Page 37
                                                             Trends in Compliance Activities
                                                                Through Fiscal Year 2010



                                        Figure 32: Percentage Change From FY 2006
                                             of Forms 1040 Filed and Examined
25%

                                                                                                                            23.17%      Returns
                                                                                                                                        Examined

20%




15%


                                                                                                    11.1%

10%                                                                            8.4%
                                                   7.8%                                                                      7.97%   Returns
                                                                                                                                     Filed
                                                                                                          5.0%
                                                                               4.2%
5%

                                                   1.7%


0%
 FY 2006                                          FY 2007                     FY 2008                   FY 2009                 FY 2010


Source: TIGTA analysis of the IRS Data Book.



                                  Figure 33: Number of Forms 1040 Filed and Examined

                                                                      Returns Examined    Returns Filed


                                1,800                                                                                          180,000

                                1,700                                                                                          160,000
                                                                                                                  142,823
 Returns Examined (Thousands)




                                                                                137,850       138,950
                                1,600   132,276             134,543
                                                                                                                               140,000
                                                                                                                                            Returns Filed (Thousands)
                                1,500
                                                                                                                               120,000
                                1,400
                                                                                                                               100,000
                                1,300
                                                                                                                               80,000
                                1,200                                                                              1,581
                                                                                                                               60,000
                                1,100                                             1,392         1,426
                                                             1,385
                                         1,284                                                                                 40,000
                                1,000

                                 900                                                                                           20,000

                                 800                                                                                           0
                                        FY 2006             FY 2007             FY 2008       FY 2009             FY 2010

Source: TIGTA analysis of the IRS Data Book.




                                                                                                                                                                        Page 38
                                         Trends in Compliance Activities
                                            Through Fiscal Year 2010



                           Figure 34: Percentage Change From FY 2006
                       of Corporate Income Tax Returns Filed and Examined8

              10%

               8%

               6%

               4%                                                                 Returns Examined
               2%

               0%

               -2%

               -4%

               -6%

               -8%                                                                Returns Filed
              -10%
                 FY 2006       FY 2007         FY 2008        FY 2009         FY 2010

             Source: TIGTA analysis of the IRS Data Book.


                  Figure 35: Percentage of Corporate Income Tax Returns
                Examined – Corporations With Assets of Less Than $10 Million
              4.0%
                                                                                 Asset Values
              3.5%

              3.0%                                                                 $5M < $10M

              2.5%

              2.0%
                                                                                   $1M < $5M
              1.5%
                                                                                   $250,000 < $1M

              1.0%
                                                                                   Under $250,000

              0.5%
                                                                                   No Balance Sheet

              0.0%
                 FY 2006       FY 2007         FY 2008        FY 2009        FY 2010

             Source: TIGTA analysis of the IRS Data Book.




8
 Excludes U.S. Income Tax Return for an S Corporation (Form 1120S), U.S. Income Tax Return of a Foreign
Corporation (Form 1120-F), and U.S. Income Tax Return of a Cooperative Association (Form 1120-C).
                                                                                                      Page 39
                                                             Trends in Compliance Activities
                                                                Through Fiscal Year 2010



                                  Figure 36: Percentage of Corporate Income Tax Returns
                               Examined – Corporations With Assets of $10 Million and Greater
40%
                                                                                                                Asset Values
35%

30%

25%                                                                                                              $250M & Greater


20%
                                                                                                             $100M < $250M
15%
                                                                                                                $10M < $100M
10%

           5%

           0%
            FY 2006                             FY 2007                  FY 2008            FY 2009      FY 2010

 Source: TIGTA analysis of the IRS Data Book.


                                      Figure 37: Number of Tax Returns Filed and
                               Examined – Corporations With Assets of Less Than $10 Million

                                                                    Returns Examined     Returns Filed

                               25                                                                                        2,500
                                        2,230              2,171                2,166           2,146
Returns Examined (Thousands)




                                                                                                          2,041
                               20                                                                                        2,000   Returns Filed (Thousands)


                               15                                                                                        1,500



                               10                           20                     21                                    1,000
                                                                                                  18       19
                                       18


                                5                                                                                        500



                                0                                                                                        0
                                     FY 2006              FY 2007              FY 2008         FY 2009   FY 2010

 Source: TIGTA analysis of the IRS Data Book.




                                                                                                                                                             Page 40
                                                                        Trends in Compliance Activities
                                                                           Through Fiscal Year 2010



                                                Figure 38: Number of Tax Returns Filed and
                                        Examined – Corporations With Assets of $10 Million and Greater

                                                                             Returns Examined     Returns Filed

                                               20                                                                               80

                                               18                                                         66
                Returns Examined (Thousands)




                                                                                                                                70
                                                                                           62                        62




                                                                                                                                     Returns Filed (Thousands)
                                               16                       57
                                                      57
                                                                                                                                60
                                               14
                                                                                                                                50
                                               12

                                               10                                                                               40

                                               8
                                                                                                                                30
                                               6
                                                      11                                                             10         20
                                                                        10                 9              10
                                               4
                                                                                                                                10
                                               2

                                               0                                                                                0
                                                    FY 2006        FY 2007              FY 2008        FY 2009     FY 2010

                Source: TIGTA analysis of the IRS Data Book.


                                                       Figure 39: Percentage Change From FY 2006
                                                           of Forms 1120S Filed and Examined9

                       30%


                       25%

                                                                                                                              Returns
                       20%                                                                                                     Filed

                                                                                                                               Returns
                       15%                                                                                                    Examined


                       10%


                                         5%


                                         0%
                                          FY 2006             FY 2007                 FY 2008            FY 2009          FY 2010

                Source: TIGTA analysis of the IRS Data Book.




9
    The increase in returns examined coincided with a compliance study of Forms 1120S.
                                                                                                                                                                 Page 41
                                                                                 Trends in Compliance Activities
                                                                                    Through Fiscal Year 2010



                                                               Figure 40: Number of Forms 1120S Filed and Examined

                                                                                        Returns Examined       Returns Filed

                                                          50                                                                              5,000
                                                                                                                   4,391        4,415
                                                          45                                        4,156                                 4,500
                      Returns Examined (Thousands)




                                                                               3,910




                                                                                                                                                      Returns Filed (Thousands)
                                                          40        3,715                                                                 4,000

                                                          35                                                                              3,500

                                                          30                                                                              3,000

                                                          25                                                                              2,500

                                                          20                                                                              2,000

                                                          15                                                                              1,500

                                                          10                                                                              1,000
                                                                                 18                  17              17          16
                                                                        14
                                                           5                                                                              500

                                                           0                                                                              0
                                                                   FY 2006    FY 2007              FY 2008        FY 2009      FY 2010


     Source: IRS Data Book.


Figure 41: Number of Tax Returns Filed and Examined – Partnerships

                                                                                       Returns Examined      Returns Filed

                                                     20                                                                                       4,000

                                                                                                                    3,349        3,424
                                                     18                                                                                       3,500
                                                                                                   3,147
 Returns Examined (Thousands)




                                                                              2,935
                                                                                                                                                             Returns Filed (Thousands)
                                                     15           2,720                                                                       3,000


                                                     13                                                                                       2,500


                                                     10                                                                                       2,000


                                                      8                                                                                       1,500
                                                                                                     13              13
                                                                               12                                                  12
                                                      5            10                                                                         1,000


                                                      3                                                                                       500


                                                      0                                                                                       0
                                                                 FY 2006     FY 2007              FY 2008         FY 2009       FY 2010



Source: IRS Data Book.




                                                                                                                                                                                         Page 42
                                                           Trends in Compliance Activities
                                                              Through Fiscal Year 2010



Figure 42: Number of Tax Returns Filed and Examined – Fiduciaries

                                                                   Returns Examined      Returns Filed

                                10,000                                                                                  5,000


                                                               3,751




                                                                                                                                Returns Filed (Thousands)
                                 8,000          3,699                           3,730                                   4,000
           Returns Examined




                                                                                             3,111         3,096
                                 6,000                                                                                  3,000



                                 4,000                                                                                  2,000


                                                                                             5,259         5,298
                                                               4,544            4,582
                                 2,000          3,669                                                                   1,000



                                     0                                                                                  0
                                             FY 2006       FY 2007             FY 2008      FY 2009       FY 2010


 Source: IRS Data Book.


                                                  Figure 43: Number of Tax Returns Filed
                                                     and Examined – Employment Tax

                                                           Returns Examined              Returns Filed
                                80                                                                                  35,000
                                         31,058          30,804             30,717        30,503         30,158
                                70
 Returns Examined (Thousands)




                                                                                                                    30,000           Returns Filed (Thousands)
                                60
                                                                                                                    25,000

                                50
                                                                                                                    20,000
                                40
                                                                                                                    15,000
                                30                                            60            64             64
                                                          57
                                                                                                                    10,000
                                20         42

                                10                                                                                  5,000


                                 0                                                                                  0
                                         FY 2006        FY 2007            FY 2008       FY 2009         FY 2010

Source: IRS Data Book.




                                                                                                                                                                 Page 43
                                                          Trends in Compliance Activities
                                                             Through Fiscal Year 2010



Figure 44: Number of Tax Returns Filed and Examined – Excise Tax

                                                               Returns Examined          Returns Filed

                               50                                                                                         1,000
Returns Examined (Thousands)




                                                                                               935
                                                        896                   895




                                                                                                                                       Returns Filed (Thousands)
                               40                                                                                         800
                                         839
                                                                                                               784

                               30                                                                                         600



                               20                                                                                         400
                                                         36


                               10                                                                               18        200
                                          17                                  16               17


                                0                                                                                         0
                                        FY 2006        FY 2007              FY 2008         FY 2009           FY 2010


Source: IRS Data Book.


                  Figure 45: Number of Tax Returns Filed and Examined – Estates

                                                                      Returns Examined        Returns Filed

                               16,000                                                                                         80

                               14,000                                                                                         70
                                                               60
                                                                                                                                   Returns Filed (Thousands)
                               12,000           55                                                                            60
Returns Examined




                                                                                    47               48
                               10,000                                                                                         50
                                                                                                                     42
                                8,000                                                                                         40

                                6,000                                                                                         30

                                4,000                                                                                         20
                                               5,299          4,616
                                2,000                                            3,852           4,468           4,288        10

                                    0                                                                                         0
                                            FY 2006       FY 2007              FY 2008          FY 2009         FY 2010

Source: IRS Data Book.




                                                                                                                                                                   Page 44
                                                                   Trends in Compliance Activities
                                                                      Through Fiscal Year 2010



               Figure 46: Number of Tax Returns Filed and Examined – Gift Tax

                                                                          Returns Examined                   Returns Filed

                                   3,500                                                                                                                      350


                                   3,000                                                                                                                      300
                                                 265                 264




                                                                                                                                                                    Returns Filed (Thousands)
                                                                                           255                     257
                                                                                                                                           239
                                   2,500                                                                                                                      250
               Returns Examined




                                   2,000                                                                                                                      200


                                   1,500                                                                                                                      150


                                   1,000        2,051                                                                                                         100
                                                                                                                                           1,777
                                                                    1,490                                         1,569
                                     500                                                  1,071                                                               50


                                       0                                                                                                                      0
                                              FY 2006              FY 2007               FY 2008                 FY 2009                  FY 2010


              Source: IRS Data Book.


              Figure 47: Number of Other Compliance Contacts on Forms 104010

                                                                     Math Error          Underreporter            ASFR
                                  14,000


                                  12,000
                                                                                                                 12,050


                                  10,000
                  Thousands




                                   8,000                                                                                                    8,445



                                   6,000


                                   4,000                                                                                                            4,336

                                                                         3,403                   3,530                    3,621
                                           3,159 3,209           2,966                   2,801
                                   2,000

                                                         1,253                   1,356                   1,300                    1,385                     1,175
                                       0
                                              FY 2006                FY 2007                 FY 2008                 FY 2009                     FY2010

              Source: IRS Data Book. ASFR = Automated Substitute for Return system.


10
  The spike in FY 2009 is at least partially due to eligible taxpayers whose circumstances changed and who may
have claimed a rebate recovery credit to receive some or the entire unpaid portion of an economic stimulus payment.
The FY 2009 data include cases where the rebate recovery credit was not claimed on tax returns, but the IRS
computed the credit for eligible taxpayers. In FY 2010, the Making Work Pay Tax Credit was a refundable tax
credit based on earned income. The FY 2010 data include cases for which the Making Work Pay Tax Credit was
not initially claimed on tax returns, but the IRS subsequently computed the credit for eligible taxpayers.
                                                                                                                                                                                                Page 45
                                    Trends in Compliance Activities
                                       Through Fiscal Year 2010



        Figure 48: Other Compliance Contacts – Forms 1040 Coverage Rate

                       FY 2006         FY 2007        FY 2008         FY 2009        FY 2010

 Math Error            3,159,077       2,965,745       2,801,427    12,049,948        8,445,374

   Coverage Rate            2.36%          2.21%           2.02%          7.81%           5.86%


 Underreporter         3,209,000       3,403,000       3,530,000      3,621,000       4,336,000

   Coverage Rate            2.42%          2.54%           2.54%          2.35%           3.01%


 ASFR                  1,253,000       1,356,000       1,300,000      1,385,000       1,175,000

   Coverage Rate            0.94%          1.01%           0.94%          0.90%           0.82%

Source: TIGTA analysis of the IRS Data Book. ASFR = Automated Substitute for Return system.




                                                                                               Page 46
                                 Trends in Compliance Activities
                                    Through Fiscal Year 2010



                                                                            Appendix V

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

Management Advisory Report: Evaluation of Reduction in the Internal Revenue Service’s
Compliance Activities (Reference Number 2000-30-075, dated May 12, 2000).
Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
Number 2001-30-175, dated September 21, 2001).
Management Advisory Report: Analysis of Trends in Compliance Activities Through Fiscal
Year 2001 (Reference Number 2002-30-184, dated September 30, 2002).
Trends in Compliance Activities Through Fiscal Year 2002 (Reference Number 2003-30-078,
dated March 31, 2003).
Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083,
dated April 23, 2004).
Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055,
dated March 30, 2005).
Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055,
dated March 27, 2006).
Trends in Compliance Activities Through Fiscal Year 2006 (Reference Number 2007-30-056,
dated March 27, 2007).
Trends in Compliance Activities Through Fiscal Year 2007 (Reference Number 2008-30-095,
dated April 18, 2008).
Trends in Compliance Activities Through Fiscal Year 2008 (Reference Number 2009-30-082,
dated June 10, 2009).
Trends in Compliance Activities Through Fiscal Year 2009 (Reference Number 2010-30-066,
dated June 10, 2010).




                                                                                      Page 47
                                     Trends in Compliance Activities
                                        Through Fiscal Year 2010



                                                                                   Appendix VI

                                Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return System – A system designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the IRS and historical tax return
information.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Compliance Services Collection Operations – An IRS function that mails the balance-due and
return-delinquency notices to taxpayers and analyzes and responds to taxpayer correspondence.
This function was formerly known as the Service Center Collection Branch.
Computing Centers – IRS facilities that support tax processing and information management
through a data processing and telecommunications infrastructure.
Coordinated Industry Case – An Examination function classification used for the largest and
most complex corporations.
Corporate Income Tax Return – U.S. Corporation Income Tax Return (Form 1120). It is used
by corporations to report the corporate income tax.
Dollar Yield per Hour – The amount of tax adjustments on tax returns divided by the number of
hours spent examining those returns.
Employment Tax Returns – Various Form 94X return series (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s QUARTERLY Federal
Tax Return (Form 941)) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706). It is filed for estates of certain deceased persons.
                                                                                            Page 48
                                     Trends in Compliance Activities
                                        Through Fiscal Year 2010



Examination (Face-to-Face) – Field examinations of individuals, partnerships, or corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.
Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720) is used to report and pay
certain taxes, such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709) is used to report transfers subject to the Federal gift taxes and to calculate the taxes
due on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the United States.
IRS Data Book – Provides information on returns filed and taxes collected, enforcement,
taxpayer assistance, the IRS budget and workforce, and other selected activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of internal revenue laws and to provide experience, independence, and stability to the IRS so it
may move forward in a cogent, focused direction.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Math Error Program – A process in which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in a tax change.
No-Change Rate – Percentage of examinations where the examiner closed the case with no
recommended tax change.
Overhead Staff – Support staff performing indirect duties within the function such as
automation support, technical support, and quality review.
Partnership Return – U.S. Return of Partnership Income (Form 1065) is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign the cases for contact.



                                                                                             Page 49
                                     Trends in Compliance Activities
                                        Through Fiscal Year 2010



Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – An employee in the CFf who attempts to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
ACS.
Revenue Officer Examiner – A revenue officer who has been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S) is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Shelved or Surveyed Cases – Delinquent unpaid accounts or investigations of unfiled tax
returns that have been taken out of the Collection function inventory because they are of lower
priority than other available inventory.
Substitute for Return/6020(b) Return – Tax returns prepared by the IRS, based on Internal
Revenue Code provisions, when taxpayers appear to be liable for taxes but have not voluntarily
filed the returns.
Tax Compliance Officer/Tax Auditor – An employee in the Examination function who
primarily conducts examinations of individual taxpayers through interviews at IRS field offices.
The position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – In the context of this report, an employee located in a field office who conducts
examinations through correspondence. However, the tax examiner position is also used for
many other types of positions located in various IRS offices.
Tax Gap – The difference between what taxpayers should have paid and what they timely paid.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Taxpayer Delinquency Investigation – An unfiled tax return(s) for a taxpayer. One TDI exists
for all delinquent tax periods for a taxpayer.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate TDA exists
for each delinquent tax period.
Tax Year – A 12-month accounting period for keeping records on income and expenses used as
the basis for calculating the annual taxes due. For most individual taxpayers, the tax year is
synonymous with the calendar year.


                                                                                              Page 50
                                    Trends in Compliance Activities
                                       Through Fiscal Year 2010



Trust Fund Recovery Penalty – When a company does not pay the taxes it withholds from
employee wages, such as Social Security or individual income tax, the IRS has the authority to
assess all responsible corporate officers individually for the taxes withheld via the Trust Fund
Recovery Penalty.




                                                                                          Page 51
